           Office of Inspector General




June 30, 2004

DENNIS R. UNGER
MANAGER, TENNESSEE DISTRICT

SUBJECT: 	Audit Report – Self-Service Vending Program – Tennessee District
         (Report Number DR-AR-04-003)

This is one of a series of audit reports on the Self-Service Vending Program in the
Southeast Area. The report presents the results of our self-initiated audit on the
Self-Service Vending Program in the Tennessee District (Project Number
04WG003DR002). The information in this district report will be included in a report
to the Southeast Area Vice President.

                                         Background
The Self-Service Vending Program, implemented in October 1964, is one of the Postal
Service’s major programs. It provides Postal Service customers with a convenient
alternative for purchasing stamps and other basic Postal Service products after
business hours and without the need to stand in line during business hours.
Nationwide, the Postal Service maintains approximately 30,000 vending machines
(27,000 self-service postal centers and 3,000 other types of vending equipment) that
generated over $1.9 billion in revenue during fiscal years (FYs) 2001 through 2003.
The Southeast Area had 4,298 pieces of vending equipment that generated over
$109 million in revenue during FY 2003, of which the Tennessee District maintained
812 (19 percent of the total area) machines that generated over $14.8 million
(14 percent of the total area) in revenue in the same year.

                              Objective, Scope, and Methodology
The objective of our audit was to determine whether the Self-Service Vending Program
is effectively and efficiently meeting program goals of increasing revenue and reducing
operating costs. Specifically, in this review, we determined whether Self-Service
Vending Program managers have effectively redeployed vending equipment that does
not meet minimum revenue requirements in order to maximize revenue, and
discontinued the use of obsolete vending equipment. Of the 812 vending machines
operating in the Tennessee District, 96 were classified as obsolete based on Postal


   1735 N Lynn St.
   Arlington, VA 22209-2020
   (703) 248-2100
   Fax: (703) 248-2256
Self-Service Vending Program –                                                                         DR-AR-04-003
 Tennessee District


Service guidance, while the remaining 716 were classified as current equipment.
During our audit work, we visited Postal Service facilities, interviewed managers and
employees, reviewed documentation and applicable policies and procedures, and
analyzed data in the Postal Service’s Vending Equipment Sales and Service System for
FYs 2002 through 2003 to identify obsolete equipment and equipment that did not meet
the minimum revenue requirements.1 Although we relied on data obtained from the
Vending Equipment Sales and Service System, we did not test the validity of the data
and controls over the system. Audit work associated with the Tennessee District was
conducted from December 2003 through June 2004, in accordance with generally
accepted government auditing standards and included such tests of internal controls as
were considered necessary under the circumstances. We discussed our observations
and conclusions with appropriate management officials and included their comments,
where appropriate.

                                         Prior Audit Coverage
We did not identify any prior audits or reviews related to the objective of this review.

                                               Audit Results
Opportunities exist for Tennessee District officials to improve the effectiveness and
efficiency of the Self-Service Vending Program and to meet or exceed program goals of
increasing revenue and reducing operating costs. Specifically, officials could increase
revenue opportunities by redeploying equipment that does not meet minimum revenue
requirements. Further, Tennessee District officials could reduce maintenance and
repair costs by discontinuing the use of obsolete equipment.

Redeployment of Vending Equipment

Tennessee District officials could improve their process for redeploying vending
equipment that does not meet Postal Service minimum revenue requirements.
Specifically, in FY 2003, the Tennessee District may have missed revenue opportunities
totaling approximately $1.1 to $3.5 million by not redeploying vending equipment that
does not meet the Postal Service’s minimum revenue requirements.2 Our review of
vending equipment revenue reports showed that 416 (58 percent) of the 716 vending
machines did not meet minimum revenue requirements during FY 2003, and district
officials did not initiate any redeployment actions. Average vending equipment sales


1
  Obsolete equipment was not included in the minimum revenue analysis.
2
  For each vending machine, we calculated the shortfall in revenue compared to the established minimum for a
particular machine type and referred to this shortfall as “missed revenue opportunities.” The $1.1 million represents
the minimum total possible missed revenue opportunities after giving consideration to Postal Service guidance, which
requires district officials to review revenue reports and take appropriate actions if a vending machine’s revenue does
not reach plan in three to six accounting periods. The $3.5 million represents the maximum total possible missed
revenue opportunities for the FY 2003 and is calculated by subtracting actual revenues generated from the total of all
machine minimum revenue requirements.



                                                          2
Self-Service Vending Program –                                                DR-AR-04-003
 Tennessee District


totaled approximately $3.6 million, which was significantly less than the average
minimum revenue requirement of $7.1 million.

One of the Self-Service Vending Program’s goals is to increase revenue through
redeploying equipment. The Postal Service should redeploy equipment that does
not meet minimum revenue requirements to other locations. Postal Service policy,
Handbook PO-102, Self Service Vending Operational and Marketing Program,
May 1999 (updated with Postal Bulletin revisions through December 25, 2003),
establishes the minimum revenue requirements for vending machines. The District
Retail Office is responsible for evaluating equipment revenue to find the right location
for the right machine. If self-service vending equipment is located in an area where it is
unable to generate revenue to meet the minimum requirement, the equipment must be
considered for redeployment. If revenue does not meet the minimum requirement in
three to six accounting periods, the District Retail Office should place the equipment on
a list for redeployment; notify any office where changes will be made; prepare a
typewritten or computer-generated notice, approved through the District Retail Office, to
be posted in the lobby informing customers 30 days before removing the equipment;
and complete Postal Service Form 4805, Maintenance Work Order, and move the
equipment to a better location.

District officials did not initiate any redeployment action for the 416 under performing
machines because they did not review vending equipment revenue reports to identify
under performing equipment, nor did they issue low-revenue letters to notify
postmasters. District officials indicated that the Self-Service Vending Program was not
considered high-priority, and limited resources were allocated to the program. Work
efforts were directed to higher priorities such as retail postage revenue. By not taking
action to redeploy under performing equipment, the district could miss revenue
opportunities during FY 2004.

We discussed the results with Tennessee District officials and they agreed that they
could improve their redeployment process for equipment that does not meet the Postal
Service’s minimum revenue requirements.

Recommendation

We recommend the Manager, Tennessee District, direct the Retail Manager to:

1. Review revenue reports to identify under performing equipment; notify postmasters
   of equipment that generates low revenue; give consideration to all feasible
   alternatives; and complete all necessary actions to redeploy under performing
   equipment as often as possible.




                                            3
Self-Service Vending Program –                                                                     DR-AR-04-003
 Tennessee District


Management’s Comments

The Tennessee District agreed that opportunities exist to improve the effectiveness and
efficiency of the Self Service Vending Program. In January 2004, the retail staff created
and implemented the Tennessee District Vending Management Plan. The Retail
Manager and Specialists identified under-performing equipment on May 12, 2004. The
Tennessee District realizes the importance of strategically placing vending equipment to
meet customer needs. Tennessee district officials plan to make every effort to place the
correct machine at the correct location during the period of July 30 through September
30, 2004. Consideration will be given to feasible alternatives before removing or
relocating any vending equipment. Management’s comments, in their entirety, are
included in the appendix of this report.

Evaluation of Management’s Comments

Management comments are responsive to our recommendation. Management’s actions
taken or planned should correct the issues identified in the finding.

Use of Obsolete Equipment

During FY 2003, Tennessee District officials continued to use and incur maintenance
and repair expenses for 96 obsolete machines, although Postal Service policy
discontinued maintenance and repair support for the machines in June 2000.3 Vending
equipment revenue reports showed that 82 (85 percent) of the 96 machines did not
meet minimum revenue requirements during FY 2003. District officials stated that they
continued to use the obsolete equipment because postmasters and their managers of
Post Office Operations would not remove obsolete equipment because of the potential
adverse impact on customer service since replacement equipment was not available.
As a result, the Tennessee District incurred maintenance and repair expenses during
FY 2003, by continuing to operate and maintain the 96 obsolete machines. We were
unable to determine the amount of repair and maintenance expenses associated with
the 96 machines because the Postal Service does not capture the data for each
machine.4

Periodically, the Postal Service lists vending equipment as obsolete, meaning that the
equipment has exceeded its expected life cycle and will no longer receive support from
maintenance organizations. Inactive retail vending equipment items must be reported
to the District Material Management Specialist. When retail vending equipment items
are obsolete or listed as excess, the Postal Service may consider them for disposal
action. Parts from obsolete machines may be salvaged and stored for maintenance and

3
  This Maintenance Management Order (MMO) supplements MMO-018-96, dated June 21, 1996, titled -
Discontinuance of Support for Obsolete Vending Machines. This MMO includes discontinuance of support for
recently obsolete models of vending machines announced in the Material Logistics Bulletin (MLB-PP-00-004), issued
on May 18, 2000.
4
  We plan to conduct a future audit on vending equipment maintenance and repair costs.



                                                        4
Self-Service Vending Program –                                              DR-AR-04-003
 Tennessee District


repair of other compatible equipment. In June 2000, Postal Service policy listed the
obsolete vending equipment that should no longer receive support from maintenance
organizations.

By continuing to use and maintain obsolete machines, the district may incur repair and
maintenance cost that exceed the revenue generated. We recognize management’s
desire to provide customer service; however, because repair and maintenance costs
are not captured, management has no means of assessing whether the benefits of
operating the obsolete equipment outweigh the costs to operate it. We are making no
recommendations to the district regarding this finding. However, we plan to make a
recommendation to Postal Service Headquarters to address the policy of discontinuing
maintenance and repair support for obsolete equipment.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Debra D. Pettitt, Director,
Delivery and Retail, at (404) 507-8329 or me at (703) 248-2300.


/s/ Mary Demory

Mary Demory
Deputy Assistant Inspector General
 for Operations and Human Capital

cc: William J. Brown
    Larry Lee
    Melodie Ransom
    Joseph K. Moore




                                           5
Self-Service Vending Program –                        DR-AR-04-003
 Tennessee District


                    APPENDIX. MANAGEMENT’S COMMENTS




                                   6

Self-Service Vending Program –        DR-AR-04-003
 Tennessee District




                                 7

Self-Service Vending Program –        DR-AR-04-003
 Tennessee District




                                 8

Self-Service Vending Program –        DR-AR-04-003
 Tennessee District




                                 9

Self-Service Vending Program –         DR-AR-04-003
 Tennessee District




                                 10

